 Office of Inspector General

      Audit Report

   MWAA’S WEAK POLICIES AND
   PROCEDURES HAVE LED TO
  QUESTIONABLE PROCUREMENT
PRACTICES, MISMANAGEMENT, AND A
LACK OF OVERALL ACCOUNTABILITY
  Metropolitan Washington Airports Authority

         Report Number: AV-2013-006
        Date Issued: November 1, 2012
           U.S. Department of
                                                            Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: MWAA’s Weak Policies and                                         Date:   November 1, 2012
           Procedures Have Led to Questionable Procurement
           Practices, Mismanagement, and a Lack of Overall
           Accountability
           Report No. AV-2013-006

  From:    Calvin L. Scovel III
           Inspector General

    To:    Deputy Secretary

           The Metropolitan Washington Airports Authority (MWAA) manages Ronald
           Reagan Washington National Airport and Washington Dulles International Airport
           under the terms of a lease with the U.S. Department of Transportation (DOT).
           More recently, MWAA assumed responsibility for the Dulles Corridor Metrorail
           Project, with a $3.1 billion budget for Phase 1—$900 million of which is Federal
           investment—and cost estimates of $2.7 billion for Phase 2. As a public body with
           responsibility over two major federally owned airports and a multibillion-dollar
           public transit development effort, MWAA has been the subject of significant
           interest regarding the policies and practices of its management and Board of
           Directors.

           In 2011, Congressmen Frank R. Wolf and Tom Latham requested that we review
           MWAA’s management policies and processes. The Congressmen stressed that the
           accountability and transparency of MWAA and its Board of Directors are
           important to ensure the success of the Dulles Metrorail Project.

           On May 15, 2012, we provided an interim letter 1 to the Congressmen and briefed
           key stakeholders, including Loudoun and Fairfax counties, regarding our
           preliminary observations on MWAA’s management. In particular, we observed
           that MWAA’s oversight and internal policies and procedures related to financial
           disclosures, travel, and transparency were insufficient to ensure fiduciary and
           ethical responsibility and accountability to Congress, stakeholders, and the public.
           We also observed that MWAA’s contracting policies and practices were
           1
            OIG, “Interim Response Letter to Congressmen Wolf and Latham Regarding MWAA,” May 15, 2012. OIG
           correspondence and reports are available on our Web site at www.oig.dot.gov.
                                                                                                                         2


insufficient to ensure compliance with the Act’s provisions and MWAA’s internal
procurement procedures, resulting in contracts that are not subject to full and open
competition and may not represent best value. 2 Since our interim letter, MWAA
has begun to take steps to improve its transparency, governance, and procurement
practices.

This report provides the results of our review, including updates on actions taken
in response to concerns raised in our interim letter as well as further actions
needed to better ensure accountability and transparency in MWAA’s governance. 3
Specifically, this report details our assessment of (1) MWAA’s contract award and
procurement practices, including compliance with relevant laws; (2) its code of
ethics for its employees; (3) its hiring and compensation practices; and (4) the
accountability and transparency of its Board of Director activities.

We conducted our audit in accordance with generally accepted Government
auditing standards. To conduct our work, we reviewed relevant acts, agreements,
policies, and manuals; examined Federal, State, and local best contracting
practices; and interviewed MWAA officials. In addition, we reviewed a total of
125 contracts to evaluate MWAA’s contract practices. Exhibit A provides the full
details of our scope and methodology, and exhibit B lists organizations visited or
contacted.

RESULTS IN BRIEF
As a result of our interim letter, subsequent audit work, and increased public
scrutiny, MWAA has taken action to improve its accountability, transparency, and
governance. For example, MWAA has approved a new travel policy and new
codes of ethics for employees and the Board, revised the Board’s bylaws and
Freedom of Information Policy, and terminated contracts with former Board
members. While these are the types of actions needed to ensure fiduciary and
ethical responsibility, further actions remain to fully address the management
weaknesses we identified during our audit.

First, MWAA’s contracting policies and practices are insufficient to ensure
compliance with the Airports Act and the lease agreement between DOT and
MWAA. The Act and the agreement require the Authority to competitively award
contracts over $200,000 to the maximum extent practicable. However, for the
period we reviewed, 4 MWAA used categorical exceptions to limit competition for
almost two-thirds of MWAA’s contracts that exceeded $200,000. While MWAA’s

2
  In addition, at Congressman Wolf’s request, our interim letter included a preliminary review of MWAA’s
assumptions for Dulles Toll Road revenue, which found that the assumptions appeared reasonable.
3
  As first referenced in our interim letter, investigations into allegations of mismanagement and misconduct are still
ongoing and are not discussed in this report.
4
  January 2009 to June 2011.
                                                                                                                           3


Contracting Manual allows the use of categorical exceptions, 5 MWAA frequently
did not meet its Contracting Manual requirements for adequate justifications when
using these exceptions. Adding new out-of-scope work to existing contracts and
issuing task orders without required justifications and approvals have also limited
competition. These weaknesses are exacerbated by ineffective contract
management and oversight and a lack of adequate procurement integrity policies
to ensure impartiality when awarding and administering contracts. Notably,
MWAA has delegated procurement authority to employees outside its
Procurement and Contracts Department but has not kept track of those with this
authority and has not held employees to their delegated authority limits. MWAA
Board members and senior officials set the tone for a lax internal control culture
by engaging in questionable contracting practices—including initiating work
before contract award, awarding sole source contracts without proper justification,
and providing non-public information that gives potential contractors an unfair
advantage in competition.

Second, the code of ethics and related MWAA policies and procedures in place at
the time of our audit lacked the rigor needed to ensure credibility and the integrity
of management and employee decisions. While MWAA recently approved a new
employee code of ethics that will go into effect on January 1, 2013, the
Authority’s existing ethics-related procedures have been insufficient to detect
violations of anti-nepotism and gift provisions and to identify potential conflicts of
interest. For example, the Vice President of Human Resources indirectly
supervised relatives, despite the code’s explicit provision prohibiting such
relationships. In addition, employees regularly accepted inappropriate gifts from
an MWAA contractor—including Super Bowl tickets, travel, and accommodations
worth almost $5,000. Cursory reviews of financial disclosure statements have
further limited MWAA’s ability to prevent and detect conflicts of interest. For
example, at the time of our review, the former President/Chief Executive Officer’s
(CEO) 2009 financial interest form was missing a page with key details about the
CEO’s financial holdings. Weak policies and procedures and a lack of recurrent
ethics training have provided little assurance that employees are fully aware of
MWAA’s ethics requirements, increasing the risk of unintentional ethics
violations.

Third, MWAA’s hiring and compensation practices lack oversight and
accountability. MWAA’s standard hiring process for filling vacancies or creating
new positions has not been formally documented as an official policy, which has
allowed senior officials to place candidates into new or existing positions without

5
  MWAA’s Board of Directors authorized six categorical exceptions to full and open competition in section 1.2 of
MWAA’s second edition Contracting Manual: (1) limited competition for urgent needs; legal, financial, audit, or
legislative representation professional services; and local business set asides; (2) airport security controlled distribution
RFP; (3) utility supplies and services; (4) Government purchasing agreements; (5) airline tenant procured projects; and
(6) proprietary equipment and software. Use of these exceptions requires no further Board approval.
                                                                                                                    4


job descriptions, competition, or completed background checks. In some cases,
senior officials abused MWAA’s student program to hire employees who were not
students, using personnel documentation that falsely showed student status.
MWAA’s lack of oversight also resulted in employees with known criminal
convictions working at the Authority in sensitive and management positions for
more than a year. In addition, MWAA managers awarded excessive salaries,
unjustified hiring bonuses, questionable cash awards, and ineligible benefits. For
example, MWAA created a new position for a former Board member that included
an annual salary of $180,000 for unspecified job duties, before ultimately
terminating the position after public outcry. In another example, an MWAA
Human Resources manager deliberately abused MWAA’s benefits programs to
continue paying an individual who no longer worked for the Authority. 6

Finally, MWAA’s policies and processes have not ensured accountability and
transparency for activities conducted by its Board of Directors. Unlike its policies
for MWAA employees, MWAA’s policies for the Board did not at the time of our
review explicitly prohibit nepotism or other relationships that may cause undue
influence at the Authority. 7 Without such controls, MWAA has not been able to
hold its Board accountable to the same standards it holds its employees.
Specifically, MWAA could not ensure that relatives and friends of Board members
did not receive preferential treatment in hiring or contracting, as we found in one
case. Oversight weaknesses and a lack of training have further hindered MWAA’s
ability to prevent conflicts of interest for its Board members. For example,
contrary to MWAA’s ethics policies established specifically for the Board, a
Board member participated in the selection of a contractor who employed the
Board member’s spouse. While MWAA has taken steps to improve Board
accountability and transparency—including a new code of ethics for the Board and
revised travel policies—significant attention will be required to ensure that new
travel, ethics, and disclosure policies are implemented and enforced.
We are making a series of recommendations to the Office of the Secretary to
facilitate the improvement of MWAA’s policies, processes, internal controls,
transparency, and accountability.

BACKGROUND
MWAA was created through an interstate compact between the Commonwealth of
Virginia and the District of Columbia as well as the Metropolitan Washington
Airports Act of 1986. 8 In March 1987, the Secretary of Transportation and
MWAA entered into a 50-year lease authorizing MWAA to occupy, operate,

6
  This manager was later disciplined with a 3-day suspension for these actions.
7
  MWAA’s recently revised Board code of ethics will take effect December 2012 and includes a provision preventing
these relationships.
8
  Pub. L. 99-591.
                                                                                                                5


control, and use all land and related areas of the airports, with full power over
operations and development of the airports. In April 2003, the term was extended
to 80 years.

As designed by the Airports Act and lease, MWAA was governed by a 13-member
Board of Directors composed of 5 members from Virginia, 3 from the District of
Columbia, 2 from Maryland, and 3 Presidential appointees. In October 2012,
Board membership increased to 17 members. 9 Board members serve 6-year terms
without compensation. The Board is responsible for establishing policy and
providing direction to MWAA’s President/CEO.

The Airports Act and the lease established MWAA as an independent public body.
As such, MWAA is not subject to Federal or State laws that govern procurement,
ethics, civil service, and transparency. However, MWAA must abide by the
provisions and terms of the Airports Act, the lease, and the interstate compact, as
well as its own internal policies and processes.

The Airports Act and lease require MWAA to develop a code of ethics to ensure
the integrity of decisions made by MWAA’s Board of Directors and its
approximately 1,400 employees. MWAA has two separate codes of ethics
policies—one for its Board of Directors and another for its employees. Each code
describes situations causing both an actual or apparent conflict of interest, which
could adversely affect the confidence of the public in the integrity and credibility
of MWAA. Each code defines standards of ethical conduct, such as acceptance of
gifts and annual financial interest disclosure requirements.

While MWAA is not required to follow Federal statutes or regulations for
procuring goods and services, the Airports Act and the lease agreement with DOT
require the Authority to obtain full and open competition for contracts in excess of
$200,000, to the maximum extent practicable. The Act and the lease specify this
be accomplished through the use of published competitive procedures. MWAA’s
Board of Directors may grant exception to this requirement by a vote of the
majority of the Board.
In 2011, amid multiple allegations of misconduct and mismanagement on the part
of MWAA, Congressmen Wolf and Latham asked OIG to initiate a review of
MWAA. In May 2012, we reported our observations to date in an interim letter.
We identified weaknesses in MWAA’s policies and procedures related to
contracting, financial disclosure, travel, ethics, and transparency that limited

9
 In October 2012, the District of Columbia passed legislation to amend the interstate compact to complete the
implementation of changes to the Board’s composition mandated by the Consolidated and Further Continuing
Appropriations Act of 2012 (Pub. L. 112-55, Div. C, Title I, § 191). Congress passed this Act in November 2011 to
expand the MWAA Board from 13 to 17 members, including 7 appointed by the Governor of Virginia, 4 by the Mayor
of the District of Columbia, 3 by the Governor of Maryland, and 3 by the President of the United States.
                                                                                 6


MWAA’s accountability to Congress, stakeholders, and the public—as well as its
compliance with the Act. Specifically, we reported the following:
• MWAA’s policies are not sufficient to promote ethical conduct or prevent
  potential conflicts of interest for its Board members.
• MWAA’s policies and oversight do not ensure that Board travel expenses are
  reasonable.
• Visibility into key Board activities remains limited despite actions taken to
  enhance Board transparency.
• MWAA did not maximize competition for contracts or always request Board
  approval when required.
• MWAA’s contracting policies and procedures do not reflect effective contract
  management.
• MWAA’s policies lack procedural safeguards for ensuring they are followed,
  and there are limited avenues for judicial review and other mechanisms (such
  as penalties for noncompliance) to address concerns regarding MWAA’s
  ethics, transparency, contracting, and other practices.

Notably, we reported that MWAA’s government-appointed Board members are
not bound to the same State ethics and financial disclosure laws as the elected
officials who appointed them. This is in contrast to other major transportation
Boards—for example, the Board of Directors of the Dallas-Fort Worth
International Airport must follow Texas State law and guidelines related to ethics,
transparency, and procurement; willful failure to comply can be punishable by
imprisonment and fines.
In response to our May 15 interim letter describing questionable Board activities,
the Secretary, the Governors of Maryland and Virginia, and the Mayor of the
District of Columbia issued a letter in August 2012 to MWAA’s Chairman and
Board members mandating immediate reform of MWAA’s business practices.
Reforms include, among others, terminating all existing contracts with former
Board members and former employees that were not competitively bid,
strengthening MWAA’s ethics code to guard against conflicts of interest and
provide annual ethics training to Board members and employees, and tightening
Board travel procedures to eliminate wasteful spending. In addition, the Secretary
appointed an Accountability Officer to monitor and report on any reform efforts.

MWAA HAS BEGUN TO ADDRESS OIG OBSERVATIONS ON
WEAKNESSES IN GOVERNANCE
Since our interim letter and the beginning of our audit, MWAA has taken a
number of steps aimed at improving its transparency, governance, and
                                                                                 7


procurement practices. For example, MWAA took action to remove a former
Board member who had been hired into a senior position a day after retiring from
the Board.

According to MWAA officials, the Authority has taken action to

• approve a new travel policy,
• revise the Board’s bylaws and Freedom of Information Policy to increase
  transparency,
• suspend the use of categorical exceptions for professional services,
• terminate contracts with former Board members or let those contracts expire,
• establish guidelines requiring contracting officers to select contractors under
  temporary staffing multiple-award contracts, and
• enhance screening for nepotism.

Furthermore, as of September 19, 2012, MWAA approved new codes of ethics for
its Board of Directors and its employees. The revisions will go into effect
December 1, 2012, (for the Board) and January 1, 2013 (for MWAA employees).

In addition, in its response to this report, the DOT Office of the Secretary (OST)
referenced additional planned actions to improve MWAA’s accountability,
including pursuing an amendment to the lease between MWAA and DOT to
ensure greater oversight. See the appendix for OST’s official response.

These actions indicate that longstanding weaknesses exist and that significant
changes are needed to promote ethical conduct among MWAA employees and
Board members and ensure the integrity of its contracting policies and practices.
However, MWAA’s recent actions have not been independently assessed and
remain to be implemented. In addition, further actions are needed to fully address
the management weaknesses we identified during our audit, particularly as they
relate to the Authority’s oversight of its activities.

MWAA’S CONTRACTING POLICIES AND PRACTICES ARE
INSUFFICIENT TO ENSURE COMPLIANCE WITH THE AIRPORTS
ACT OR LEASE AGREEMENT AND DO NOT FOLLOW
CONTRACT MANAGEMENT BEST PRACTICES
The Airports Act and the lease agreement between DOT and MWAA require the
Authority to award contracts over $200,000 competitively to the maximum extent
practicable and to develop and publish competitive procedures. However,
MWAA’s contracting policies and practices do not encourage competition.
Instead, MWAA has relied on categorical exceptions to award contracts with
                                                                                                                         8


limited competition. These weaknesses are exacerbated by ineffective contract
management and oversight and a lack of adequate procurement integrity policies
to ensure impartiality when awarding and administering contracts. Finally,
MWAA lacks a formal acquisition planning process and has not effectively
managed the size and skill of its acquisition workforce.
Throughout our review, we identified some MWAA Board members and senior
officials, such as Vice Presidents, who engaged in questionable contracting
practices, compromising MWAA’s contracting policies and internal controls for
procurement. The integrity of an organization’s top management plays a key role
in determining an organization’s internal control culture. While official policies
establish rules, the organizational culture must follow suit to ensure the rules are
followed, not compromised or ignored.

MWAA’s Contracting Policies and Practices Do Not Maximize
Competition
While the Airports Act and MWAA’s lease agreement require full and open
competition to the maximum extent practicable, the Act also permits the Board to
grant exceptions to competition requirements. MWAA’s Contracting Manual,
which was approved by the Board, allows staff to use categorical exceptions to
limit competition. For the period we reviewed, 10 MWAA used this authority to
award almost two-thirds of its contracts that exceeded $200,000 with less than full
and open competition for items such as legal, financial services, or urgently
needed goods or services. Finally, MWAA awarded out-of-scope contract
modifications and task orders without required Board approval, placed large-value
task orders without adequate justification, and distributed work on multiple-
award 11 contracts disproportionately. These practices limit competition because
they allow MWAA to procure significant new work on existing contracts that
could be awarded competitively.

MWAA Awarded Two-Thirds of Its Contracts With Less Than Full and
Open Competition
Between January 2009 and June 2011, MWAA awarded 190 contracts that
exceeded $200,000—only 68 (36 percent) of which were awarded with full and
open competition. Of these 190 contracts, 5 were sole source awards with a
combined value of $6 million. However, MWAA awarded these five contracts
without Board approval—which the Airports Act, lease agreement, and MWAA’s
Contracting Manual require. MWAA awarded the remaining 117, or 62 percent of
the 190 contracts over $200,000, using categorical exceptions (see figure 1); these
contracts amounted to $225 million, or 40 percent of the total value of the
10
  January 2009 to June 2011.
11
  A multiple-award contract is a task order contract or any other indefinite-delivery, indefinite-quantity contract that an
agency enters into with two or more sources under the same solicitation.
                                                                                                                          9


Authority’s contracts over $200,000. 12 MWAA’s policies allow limited
competition through the use of six categorical exceptions, 13 but its Contracting
Manual states that these exceptions “comprise only a small portion of the Airport
Authority’s contracts and their dollar value.”

Figure 1. MWAA Contracts Over $200,000 Awarded Between
January 2009 and June 2011

                                                                            Sole Source
                                                                                   5

                                        Less Than
                                         Full and
                                          Open
                                        Competition
                                                                    Full and
                                          Using
                                                                     Open
                                        Categorical
                                                                   Competition
                                        Exceptions
                                            117                         68




Source: OIG analysis of MWAA’s contracting data.

MWAA used the professional services categorical exception—including legal,
financial, audit, and legislative services—to award 14 limited competition
contracts (valued at $20 million), or 7 percent of the 190 contracts over $200,000,
that MWAA awarded between January 2009 and June 2011. 14 Unlike MWAA’s
Contracting Manual, the Federal Acquisition Regulation (FAR) restricts the use of
these types of exceptions. In response to our concerns, MWAA issued a
memorandum to suspend the use of the categorical exception for professional
services, pending revisions to the Contracting Manual. 15

MWAA also used categorical exceptions without providing adequate justification
as to why it was in the Authority’s best interest not to obtain full and open
competition. Consistent with Federal best practices, MWAA’s contracting policies
12
   Awarded between January 2009 and June 2011.
13
   The six categorical exceptions established in section 1.2 of MWAA’s second edition Contracting Manual include
(1) limited competition for urgent needs; legal, financial, audit, or legislative representation professional services; and
local business set asides; (2) airport security controlled distribution RFP; (3) utility supplies and services;
(4) Government purchasing agreements; (5) airline tenant procured projects; and (6) proprietary equipment and
software. Use of these exceptions requires no further Board approval.
14
   MWAA awarded a total of 709 contracts with a total value of $589 million. MWAA awarded 54 limited competition
contracts using the professional services exception out of the 709—including 40 contracts that were below $200,000.
15
   As of August 10, 2012.
                                                                                                                   10


require such justifications when awarding contracts with less than full and open
competition. However, we found inadequate justifications in 27, or 56 percent of
the 48 contracts we reviewed (see table 1). 16

Table 1. Inadequate Justifications for Categorical Exceptions to
Full and Open Competition
                                                                                                                         a
Reason justifications were inadequate per MWAA’s Contracting Manual                              No. of contracts
Approved after the contractor had started work                                                                      17
Approved even though the justification was incomplete                                                               15
No justification documented                                                                                              1
Approved for the limited competition exception, but lacked any evidence of
                                                                                                                         8
competition
Approved for the urgent needs exception, but did not adequately justify the
                                                                                                                         3
reason for the urgency
a
  The contracts add up to more than 27 because the justifications for some contracts were inadequate for more than one
reason.
Source: OIG analysis of MWAA contracts awarded with categorical exceptions.

In addition, MWAA awarded five sole source contracts over $200,000 without
Board approval, violating the Airports Act, lease agreement, and MWAA’s
Contracting Manual. MWAA asserts that these five contracts did not require
Board approval because they were awarded as categorical exceptions to
competition. However, MWAA’s contract database and file documents show that
the contracts were actually awarded sole source. For example, MWAA officials
explained that three of the five contracts were awarded under the “urgent”
categorical exception, but the files lacked evidence of urgency. Further, MWAA
awarded the three contracts—each worth $350,000—to the same contractor over
3 consecutive years, suggesting that the awards were for a recurring need rather
than an urgent one.

MWAA’s Contracting Manual also requires justification for all sole source
contracts valued over $2,500. We reviewed all 15 contracts for which MWAA’s
Secretary of the Board served as the Contracting Officer’s Technical
Representative (COTR) and identified 10 sole source contracts with award values
under $200,000 that lacked adequate justification. In addition, these contracts
lacked evidence of actions taken to encourage competition, such as advertising or
market research, which is not consistent with MWAA’s Contracting Manual
requirements. For example, the Board requested that a $190,000 sole source
contract for independent engineering reviews be awarded to an engineering firm
16
   These 48 include all contracts awarded under a categorical exception from sample 1 and sample 3, see exhibit A.
From sample 1, 19 of the 32 were awarded as categorical exceptions, but the justifications for 9 were inadequate. From
sample 3, 29 of the 69 were awarded as categorical exceptions, but the justifications for 18 were inadequate.
                                                                                                               11


that employed a project manager who had worked on a prior MWAA contract. In
response to the request, the project manager informed the Secretary of the Board,
via personal email, that he was leaving the firm under the prior contract. The
Board then awarded the contract to the project manager’s new firm. The
justification for this award did not specify whether the project manager had unique
qualifications and did not describe any efforts made to seek competition for the
contract. Further, MWAA classified 2 of the 10 sole source contracts as recurring
needs, but the justifications did not specify the actions it would take to obtain
competition in the future, as MWAA’s Contracting Manual requires.

MWAA Does Not Follow Federal Best Practices To Publicize and Solicit
Contract Opportunities
To encourage competition, the FAR generally requires agencies to publicize
contract actions, including intent to award sole source contracts prior to awarding
them. In contrast, MWAA’s Contracting Manual does not require public
notification of intent to award sole source contracts, and none of the five sole
source contracts over $200,000 had been publicized prior to award. This practice
does not provide other contractors a fair opportunity to offer the supply or service
at a potentially lower cost.

According to MWAA’s Contracting Manual, solicitations for contracts over
$25,000 are generally posted on its Web site to foster competition. 17 Further, the
Manual requires the involvement of the Procurement and Contracts Department to
help prepare a solicitation. However, we identified cases in which MWAA’s
Board of Directors did not issue formal solicitations for contracts or involve the
Procurement and Contracts Department until the contracts were ready to be
awarded. For example, MWAA’s Board of Directors awarded a $150,000 contract
to help prepare a solicitation for a study to assess MWAA’s organizational
structure. Forty days later, MWAA decided not to compete the contract. Instead,
MWAA—without the Procurement and Contracts Department’s involvement—
awarded an $885,000 organizational study sole source contract to the contractor
hired to develop the solicitation. Contracting without a solicitation not only limits
competition but can lead to potential misunderstandings about the requirements or
scope of the contract. In addition, under Federal procurement rules, if a contractor
assists in preparing a work statement to be used in competitively acquiring a
service, that contractor generally may not supply that service, except in limited
situations. 18 These rules are designed to ensure that the Government receives
unbiased advice and avoids allegations of favoritism.



17
   MWAA Contracting Manual, second edition, Section 1.5. MWAA does not require solicitations for sole source
awards to be posted on its Web site.
18
   FAR 9.505-2.
                                                                                                                       12


Out-of-Scope Contract Actions, Unjustified Task Orders, and Unbalanced
Work Distribution on Multiple-Award Contracts Further Limited Competition
MWAA issued out-of-scope contract actions over $200,000—including contract
modifications and task orders 19—without required Board approval. 20 From our
statistical sample of 24 out of 343 active MWAA contracts, 21 we identified 8 for
which MWAA issued a total of 20 out-of-scope contract actions with a combined
value of $57 million. Based on these findings, we project that MWAA has issued
$107.6 million in out-of-scope contract actions on contracts active as of June
2011. 22

A 2002 audit by the Government Accountability Office (GAO) also found that
MWAA added out-of-scope contract modifications, noting that MWAA’s
published contracting guidance at the time did not require contract modifications
to remain within scope. 23 In early 2003, MWAA published the first edition of its
Contracting Manual, which contained the requirement that out-of-scope work be
awarded under a new contract—unless justified as sole source, which requires
Board approval when the value of the added work exceeds $200,000.

However, MWAA’s acquisition staff were not aware of a single instance in which
an out-of-scope contract action came before the Board for approval, which may be
the result of MWAA’s definition of within-scope work. According to MWAA’s
Contracting Manual, within-scope work includes requirements that the contract
did not initially solicit but are now considered integral. This definition allows
work to be added to contracts that far exceeds the contract award amount and
length and is unrelated to the original contract’s purpose.

For example, the expansion and renovation of the Dulles Airport main terminal, an
$8 million contract awarded in 1989, has grown by 1,700 percent to a total value
of $147 million. From 2003 to June 2011, MWAA issued 10 contract
modifications—at a total cost of $36 million—which added design and
construction management services for integrating the Transportation Security
Administration’s (TSA) luggage screening equipment and the airport’s baggage
handling systems. According to MWAA, these modifications were within the
original scope of the contract because the expansion and renovation of the main
terminal at Dulles Airport has been a long-term, complex, and evolving project.
However, TSA’s luggage screening requirement was created more than a decade

19
   A contract modification is any written change to the terms of a contract. A task order is an order for services placed
against an established contract.
20
   MWAA Contracting Manual, second edition, Section 5.4.2, requires that new work in excess of $200,000 obtain
Board approval.
21
   Active as of June 30, 2011. See sample 2 in exhibit A.
22
   Our estimate has an actual lower limit of $57.3 million and a 90-percent upper confidence limit of $170 million.
23
   GAO Report Number GAO-02-36, “Metropolitan Washington Airports Authority: Contracting Practices Do Not
Always Comply with Lease Requirements,” March 1, 2002.
                                                                                                                      13


after MWAA awarded this contract. Therefore, TSA’s new luggage screening
requirement could not be reasonably expected to be part of the contract.

Unlike the approach taken by MWAA, courts interpret within-scope work to be
what an offeror would reasonably expect to occur during performance of the
contract when the offeror submitted its proposal. 24 Adding work that had not been
originally contemplated or solicited prevents qualified contractors from competing
for the new work. By issuing out-of-scope contract actions that could have been
competitively awarded, MWAA has missed opportunities to maximize
competition and obtain better value.

MWAA may have also missed opportunities to maximize competition in its
administration of task order contracts. MWAA’s Contracting Manual requires
proper justification to explain why work valued at over $200,000 should be
performed as a task order on an existing contract, rather than be awarded as a
separate new contract. 25 In our sample, 26 MWAA placed 25 of 27 task orders
without adequate justification. 27 The 25 task orders have a combined value of
$13.6 million. According to an MWAA acquisition official, the justifications were
provided verbally in some cases; however, verbal justifications cannot be verified
and are therefore inadequate.

The manner in which MWAA has used multiple-award contracts has further
limited competition. In the Federal arena, multiple-award contracts are intended to
maintain a competitive environment among awardees and to improve contractor
performance. 28 To this end, Federal contracting officers must provide contractors
on multiple-award contracts with fair opportunities to compete for work and
document the rationale for their selection of contractors under each task order. 29
While MWAA’s Contracting Manual allows use of multiple-award contracts, it
does not provide instructions for administering them. We found that MWAA
employees outside the Procurement and Contracts Department—such as COTRs—
have ordered work under multiple-award contracts without involving the
contracting officers and have not documented contractor selection rationale.



24
   AT&T Communications v. Wiltel, Inc., 1 F.3d 1201, 1207 (Fed. Cir., 1993); DynCorp International LLC, B-402349,
March 15, 2010.
25
   MWAA has required task order justifications since January 2006. MWAA incorporated this initially unpublished
guidance into its Contracting Manual, which went into effect in 2009.
26
   Our sample consisted of 24 MWAA contracts active as of June 30, 2011. Three of these contracts were task order
contracts, which are contracts for services that do not procure or specify a firm quantity of services and provide for the
issuance of task orders during the contract period.
27
   We found justifications for 3 of 27 task orders in our sample, but we did not consider 1 justification adequate because
it was dated after the award of the task order.
28
   Office of Management and Budget, “Best Practices for Multiple Award Task and Delivery Order Contracting:
Interim Edition,” February 19, 1999.
29
   FAR 16.505(b)(1) and 16.505(b)(5).
                                                                                         14


Over the past 8 years, MWAA awarded more than 80 percent of work under three
groups of multiple-award contracts to a single contractor (“Contractor A” in
table 2). However, the contractor’s rates were often higher than the other multiple-
award contractors’ rates. For example, the contractor’s rates in a 2012 contract
were between 28 percent and 234 percent higher. While MWAA may have had
non-price related reasons for selecting Contractor A, this unbalanced distribution
of work to a single contractor with significantly higher rates appears contrary to
the purpose of multiple-award contracts and could further compromise MWAA’s
competitive environment.

Table 2. Disproportionate Distribution of Work on a Series of
Multiple-Award MWAA Contracts
Group of multiple-award contracts           Percent of work awarded       No. of other
                                       Contractor A   Other contractors   contractors

Multiple-award Group 1 (2004-2008)         75                25                  3

Multiple-award Group 2 (2008-2012)         86                14                  3

Multiple-award Group 3 (Jan. 2012- )       90                10                  2
Source: OIG analysis of MWAA data.

In addition, MWAA allowed Contractor A to add job categories to a contract but
did not offer the other multiple-award contractors the same opportunity. Thus,
when MWAA ordered work related to those additional job categories, they were
effectively sole source awards because only one contractor was able to accept the
work.

In another set of multiple-award contracts, one of five firms received over
38 percent of work. A former MWAA Board member was an owner of the firm
that received the most work, which could create the appearance of favoritism.

In July 2012, MWAA’s Procurement and Contracts Department established
guidelines requiring contracting officers to select contractors under multiple-award
contracts for temporary staff. However, this policy only applies to temporary
staffing contracts rather than to all multiple-award contracts.

MWAA’s Insufficient Policies and Lack of Controls Undermine Its
Contract Management
MWAA does not effectively manage its contracts. Specifically, MWAA does not
track employees who have been delegated contracting authority and lacks controls
to ensure employees follow its contracting policies. MWAA also lacks a formal
acquisition planning process and has not effectively managed the size and skill of
                                                                                                                 15


its acquisition workforce. Moreover, MWAA lacks contracting policies and
practices to ensure impartiality when awarding and administering contracts.

MWAA Does Not Track Employees With Delegated Procurement Authority
or Ensure They Stay Within Delegated Award Limits
MWAA’s procurement authority has been delegated to seven MWAA
employees 30 outside its Procurement and Contracts Department who may award
contracts up to a certain dollar amount. Six of the seven are allowed to further
delegate this authority to other employees without requesting permission or
approval. However, MWAA has not kept track of who has been delegated this
authority and could not give us an accurate count of all of its employees
authorized to award MWAA contracts.

We determined that 24 employees 31 outside of MWAA’s Procurement and
Contracts Department have been delegated procurement authority and that 8 of
these employees awarded a total of 22 contracts that exceeded the value of their
authority limit 32 by as much as $50,000—for a total of almost $300,000. For
example, MWAA’s General Counsel awarded a $100,000 legal services contract,
and an employee at Ronald Reagan Washington National Airport awarded an
$87,000 contract for carpeting. However, both employees had authority limits of
only $50,000. Employees who award contracts above their delegated authorities
not only violate the terms of their delegation but also may make improper
purchases or lack the appropriate experience and knowledge to execute larger and
potentially more complex contracts.

MWAA Lacks Controls To Ensure Employees Follow Key Contracting
Policies and Procedures
MWAA also lacks controls to ensure that its employees follow MWAA’s
contracting policies and practices regarding the start of contract work, Board
approval for high-value contracts, and for technical evaluation committees
responsible for selecting contractors.

MWAA allowed work to begin prior to contract award dates—that is, before the
contracting officer completed and signed the contract documents. In some cases,

30
   MWAA directive GC-002 includes delegated contracting authority to: (1) President and CEO, (2) Executive Vice
President and Chief Operating Officer (COO), (3) Vice President and General Counsel, (4) Vice President of Business
Administration, (5) Vice President and Airports Manager Ronald Reagan Washington National Airport, (6) Vice
President and Airports Manager Washington Dulles International Airport, and (7) Concessions and Property
Development Manager. MWAA’s Board Resolution 01-20 grants the President and CEO the authority to enter into,
administer, modify, and terminate contracts. This authority is re-delegated in MWAA directive GC-002.
31
   This number reflects MWAA employees who have been granted delegation in accordance with MWAA directive
GC-002. The 24 employees outside of the Procurement and Contracts Department with procurement authority consist
of the CEO, COO, General Counsel, Vice President of Business Administration, Concession & Property Development
Manager, as well as 8 employees from Ronald Reagan Washington National and 11 from Dulles International.
32
   Of these eight employees, seven had $50,000 authority limits, and one had a $2,500 limit.
                                                                                                                    16


work was started even before the contracting officer was aware MWAA
management wanted to award a contract. However, MWAA’s contracting policy
requires the contracting officer to ensure that all significant procurement actions
are taken prior to award. Ultimately, initiating work before contract terms are
agreed upon in writing—including its requirements, price, and other terms—
significantly increases MWAA’s cost and performance risks.

Of the 709 contracts MWAA awarded between January 2009 and June 2011,
contractors started work on 27 percent before their official award dates. For
example, MWAA paid one contractor $572 per hour to attend a 5-hour Board
meeting on January 6, 2010—during which the Board of Directors approved the
selection of the contractor. The contract was not officially awarded until
July 13, 2010—188 days after the work began. Table 3 shows the MWAA
contracts with work started before official contract award dates.

Table 3. MWAA Contracts With Work Started Before Official
Contract Award Dates
No. of days              1-30     31-60      61-90     91-120     121-150      151-180     Over 180           Total
before contract          days     days       days       days        days         days         days        contracts
award

No. of contracts            59        62         29         17            5            5           13             190
Source: OIG analysis of MWAA contract documentation.

Some of these contracts were initiated by top management. For example, 12 of
15 contracts we reviewed—for which the Secretary of the Board was the COTR—
were initiated prior to official contract award dates. 33 The 12 contracts—which
had a combined value of $1 million—were for work requirements requested by
MWAA Board members. For example, an MWAA Board member requested that a
consultant firm proceed with work on a sole source contract 58 days before
MWAA’s Procurement and Contracts Manager gave his required approval for the
award. 34

A 2006 MWAA internal audit also reported that contractors began work on some
contracts prior to award. In response, MWAA stated that it would revise its
Contracting Manual to only permit this practice during extraordinary
circumstances, but MWAA has not yet made these planned revisions to the
manual.


33
   Work for these 12 contracts began an average of 33 days before award, ranging from as few as 4 days to as many as
66 days before award.
34
   FAR 16.603 provides for letter contracts, a written preliminary contractual instrument, which allows work to start
prior to contract award. Letter contracts shall not be entered into without competition, when competition is required.
                                                                                                                      17


MWAA also lacks controls to ensure that its employees follow its contracting
policies and practices regarding high-value contract approval and contractor
selection. As stated in MWAA’s Contracting Manual, Board approval is required
for contract awards exceeding $3 million, except competitively awarded
construction contracts. 35 However, as we reported in our interim letter, MWAA
employees did not always obtain Board approval for high-value contracts. In our
statistical sample of 32 out of 165 contracts awarded between January 2009 and
June 2011, we identified 13 that were high-value—4 of which lacked Board
approval (totaling $34 million). MWAA asserts that Board approval was not
required for these contracts, but our review found that MWAA’s reasons for not
seeking Board approval were unsupported. For example, MWAA stated that one
high-value contract was a construction contract, but the contract was actually for
advisory services to support a construction project, which does not meet MWAA’s
definition of construction. 36 Based on our findings, we project that MWAA spent
$83.6 million 37 on contracts without Board approval—14 percent of an estimated
total of MWAA’s contracts awarded between January 2009 and June 2011. This
practice keeps the Board from being fully informed of critical business decisions.
In 2002, GAO similarly reported that MWAA had overlooked requirements to
secure required Board approval. Our findings indicate that MWAA has not fully
addressed GAO’s concerns.

In several instances, MWAA also failed to comply with its policy for technical
evaluation committees, which evaluate and help select contractors competing for
MWAA contracts. For example, MWAA’s Contracting Manual states that a
supervisor and a subordinate should not serve together as voting members when
possible to ensure independent evaluations. However, the Vice President for the
Office of Audit, who served as the chair of a technical evaluation committee,
selected two subordinates as voting members, and MWAA’s Procurement and
Contracts Manager approved the committee.

MWAA Lacks a Formal Acquisition Planning Process and Has Not
Effectively Managed the Size and Skill of Its Acquisition Workforce
MWAA does not have a formal acquisition planning process that requires
forecasts of upcoming acquisition needs. Early identification of acquisition needs
allows an organization to maximize competition, consolidate related acquisitions
to increase buying power, and reduce administrative burdens. 38 Federal law
requires agencies to prepare annual forecasts of anticipated acquisitions for the

35
   MWAA Contracting Manual, second edition, Section 1.2.
36
   MWAA defines “construction” as “construction, demolition, alteration, or repair of buildings, structures, or other real
property.”
37
   Our estimate of $83.6 million has an actual lower confidence limit of $33.7 million and a 90-percent upper
confidence limit of $138.1 million.
38
   GAO Report Number GAO-05-218G, “A Framework for Assessing the Acquisition Function at Federal Agencies,”
September 2005.
                                                                                                    18


next fiscal year and to periodically update those forecasts as necessary. For
example, DOT adheres to this mandate by requiring each Operating
Administration to submit annual forecasts of expected acquisitions over $100,000
before the start of the next fiscal year. DOT also requires quarterly updates to
these forecasts. 39 While MWAA’s Procurement and Contracts Department
requests annual acquisition plans from MWAA managers, these plans are not
required. According to MWAA, fewer than 40 percent of MWAA managers
respond to these annual requests, and MWAA’s Procurement and Contracts
Manager considers the plans that are submitted to be “fairly unreliable.”

According to MWAA procurement staff, MWAA offices also routinely ignore
notices from contracting officers of upcoming contract expiration dates. Because
of poor planning, MWAA has extended existing contracts rather than
competitively awarding new contracts—ultimately missing opportunities to obtain
competition and better prices. For example, because of delays in soliciting a new
contract, MWAA extended a custodial services contract for 7 months in 2011.

MWAA’s workforce planning has also been insufficient to determine its
workforce needs. According to MWAA, the Procurement and Contracts
Department has only grown by two employees in the past 20 years, and its one
remaining support contractor’s term will expire at the end of 2013 with no plans
for replacement. However, between 2007 and 2011, new contracts awarded by the
Procurement and Contracts Department increased an average of 47 contracts
annually due to the Dulles Toll Road and Dulles Metrorail project. While the
Procurement and Contracts Department recently requested an additional five staff
to manage this increase, MWAA has not conducted a comprehensive workforce
assessment to determine the skills needed to award and administer MWAA’s
existing and future contracts.

In addition, MWAA’s contracting officers and COTRs are not required to earn or
maintain acquisition certifications. Federal agency contracting officers and
COTRs are required to complete specific acquisition-related certification programs
and to earn continuing education credits to maintain certification. These
certifications can provide staff with the training needed to ensure proper contract
award and oversight. According to MWAA officials, training budgets 40 were not
fully used in the past because staff lacked the time for training due to increased
workloads. This indicates that MWAA has not made training a priority for its
acquisition staff.




39
  Transportation Acquisition Manual, Section 1219.202-270.
40
  From 2009 to 2011, MWAA allotted $15,000 annually for the Procurement and Contracts Department,
approximately 15 employees, or $1,000 per person.
                                                                                                                  19


MWAA’s Contracting Policies and Practices Do Not Emphasize
Procurement Integrity
MWAA also lacks comprehensive policies to ensure impartiality when awarding
and administering contracts. For example, MWAA’s Contracting Manual lacks
sufficient rules to ensure that employees do not divulge non-public and sensitive
procurement information to potential contractors. Federal rules prohibit employees
from disclosing information that could jeopardize procurement integrity—such as
source selection information and bid or proposal information. 41 Without such
restrictions, contractors can gain an unfair advantage when bidding for contracts.
For example, one MWAA Board member, who was the Chairman of the
committee responsible for selecting a contractor, disclosed in an email to a
potential contractor another contractor’s pricing. 42 In another example, the former
Vice President for the Office of Information and Telecommunications Systems
provided non-public information about an upcoming solicitation to a contractor
who was ultimately awarded the contract. Such actions by Federal employees
would be considered violations of Federal laws and regulations.

In addition, while the Federal Government imposes some post-employment
restrictions on Federal employees, MWAA lacks any post-employment restrictions
for Board members and employees. A lack of post-employment restrictions may
present at least the appearance that prior members were given an unfair advantage
in receiving contracts. We identified 7 former Board members and affiliated firms
who have been awarded 30 contracts, amounting to almost $2 million since 2003.
One former Board member was awarded 16 sole source contracts totaling
$262,000 over the past 10 years—the first only 3 months after the member left the
Board in 2002. In response to our concerns, MWAA recently began terminating its
contracts with former Board members and is not renewing its contracts with other
former members. In September 2012, MWAA approved a new ethics code that
will prohibit contracts with Board Members for 2 years after the conclusion of
their service.

MWAA’S ETHICS CODE AND PROCESSES HAVE BEEN
INSUFFICIENT TO PREVENT ACTUAL AND PERCEIVED
CONFLICTS OF INTEREST AMONG EMPLOYEES
As required by the lease agreement with DOT, MWAA created a code of ethics
with provisions aimed at ensuring the ethical conduct of its employees. However,
the code and MWAA’s related processes have not been sufficient to prevent actual
and perceived conflicts of interest and other violations. Specifically, MWAA lacks
effective procedures to detect violations of its anti-nepotism provision and to
41
 41 U.S.C. 2102; FAR 3.104-3; 5 CFR 2635.703.
42
 This individual is not a current Board member; however, this incident occurred when the individual served as a
Board member.
                                                                                                                         20


identify potential conflicts of interest through its financial disclosure process. A
lack of required ethics training for all employees has compounded these
weaknesses. As a result of these weaknesses and poor oversight, there have been
multiple violations of the code’s anti-nepotism and gift prohibition provisions and
a lack of assurance that employees are fully aware of the ethics requirements.
While MWAA recently approved a new code of ethics for its employees, which
takes effect in January 2013, additional actions will be required to ensure that the
new code is implemented and followed.

MWAA Lacks Sufficient Controls To Detect and Prevent Nepotism
According to MWAA’s ethics code, MWAA employees may not hire, supervise,
or work with family members. 43 However, MWAA lacks controls to detect and
prevent these prohibited relationships. For example, MWAA’s employment
application requests applicants to identify known relatives or friends at MWAA
but not the exact relationship, which makes it difficult to determine whether the
relationship would constitute nepotism if the applicant were hired.

The lack of oversight and responsibility has resulted in clear violations of
MWAA’s anti-nepotism provision, which states that employees may not

• appoint, employ, promote, or advance a relative within MWAA;
• directly or indirectly supervise relatives or have influence over the work,
  employment status, or affairs of the organizational unit; or
• work with a relative under the same supervisor.

One MWAA department in particular violated every component of the provision.
In this case, two relatives of the Vice President of Human Resources (Relatives A
and B in figure 2) worked within his department. Yet, the Vice President denied
having any relatives who worked at MWAA.




43
   The code specifies relatives as father, mother, grandfather, grandmother, son, daughter, granddaughter, grandson,
brother, sister, uncle, aunt, nephew, niece, husband, wife, father-in-law, mother-in-law, daughter-in-law, son-in-law,
brother-in-law, or sister-in-law.
                                                                                                                   21


Figure 2. Organizational Chart Depicting Violations of Nepotism
Provision Within Human Resources Department

                                                 Vice President
                                             of Human Resources


                                             Program Supervisor
                                   (Not related to Vice President or Relatives A
                                                       and B)




        Relative A of Vice President                                    Relative B of Vice President



 Source: OIG analysis.

As depicted in the figure, the following violations were committed:

• The Vice President directly hired Relative A into a position under a direct
  report (Program Supervisor in figure 2). Moreover, once the Office of Public
  Safety completed a background check for Relative A, the Office recommended
  against hiring the employee due to questions about the employee’s suitability.
  However, the Vice President overrode this recommendation and allowed
  Relative A to stay in the position. In addition, the official allowed Relative A
  to start working at MWAA 3 weeks prior to completion of the background
  check, which is contrary to MWAA’s hiring practice. 44

• Relative B is an immediate family member of Relative A. Relative A has the
  opportunity to influence the work decisions of Relative B due to the particular
  nature of their positions and the workflow of the program for which they both
  work.

• The Vice President and Relative B are also related, but their specific family
  relationship is not included in MWAA’s list of prohibited relationships in its
  anti-nepotism provision. However, given the Vice President’s position as the
  head of the department, the appearance of preferential treatment exists. While
  the Vice President does not directly supervise Relative B, he is responsible for
  approving the bonuses, awards, salary, and promotions for all employees in the
44
     MWAA’s hiring practice does not allow employees to start work until after they have passed their background check.
                                                                                                                   22


     department. Therefore, he has a supervisory relationship with both Relatives A
     and B.

Without clear internal controls to prevent and detect nepotism, MWAA is
vulnerable to the perception of favoritism and cannot ensure that all employees are
hired based only on the merit of their qualifications.

MWAA’s Financial Disclosure Processes Have Not Promoted Full
Disclosure of Conflicts of Interest To Ensure Compliance With Ethics
Provisions
MWAA’s financial disclosure process has also lacked the rigor needed to ensure
employees fully report conflicts of interest that damage the Authority’s credibility.
At the time of our audit, MWAA’s code required MWAA executives, Vice
Presidents, and all employees who report directly to the executives or Board of
Directors—as well as employees who work in certain departments 45—to annually
disclose personal financial interests in any business doing business with MWAA.
However, disclosure requirements for other MWAA staff were less clear,
including those for certain contracting officers and COTRs. Further, in contrast to
Federal disclosure policies—which require employees to report assets and income,
liabilities, outside positions, agreements or arrangements, 46 and gifts and travel
reimbursements—MWAA’s disclosure policies only required staff to identify
businesses that are a source of employment or other income and businesses in
which the employee has an ownership interest or an actual or potential liability.

Furthermore, MWAA’s code lacked a clear requirement for employees to disclose
receipt of gifts. MWAA’s code of ethics prohibits employees from accepting gifts
of more than $25, with some exceptions, or on a regular and frequent basis from
vendors either conducting or seeking to conduct business with the Authority. Yet,
the MWAA Vice President for Information and Telecommunications Systems and
staff members in his department regularly and frequently accepted gifts well in
excess of $25 from an MWAA contractor with a major contract with the
department he managed. From 2006 to 2010, the Vice President 47 and staff
members—including the COTR for the contract in question—accepted a total of
46 gifts at a total value of at least $12,000. 48 In addition, the Vice President

45
   These departments include Police and Fire Chiefs and employees of the following departments: Procurement and
Contracts Department, Concessions and Property Development, Office of General Counsel, Office of Air Service
Planning and Development, Office of Audit, Treasury Branch of the Finance Office, and Manager of Airlines
Relations, the Controller, the Controller’s secretary, Executive Assistant to the Chief Financial Officer, Managers of
Airports’ and Public Safety’s Administration, Airports’ Contract Management Divisions and Procurement Offices and
the Public Safety Property/Supply Office.
46
   These agreements and arrangements involve current or future employment; leave of absence from another employer;
continuation payment from another employer; and continuing participation in another employer’s pension or benefit
plan.
47
   The Vice President for Information and Telecommunications Systems was terminated from MWAA in April 2012.
48
   The value of some gifts, including professional sporting events, was not disclosed.
                                                                                  23


solicited at least one gift for a major sporting event. Accepted gifts included the
following:

• Two tickets to the 2009 Super Bowl, associated travel, and accommodations in
  Tampa, FL, valued at almost $5,000
• Four trips to golf tournaments, including one trip to the 2009 U.S. Open Golf
  Tournament in Long Island, NY, and three all-expense paid trips to Hilton
  Head, SC
• A trip to New York City to attend a major league baseball game
• Nineteen other major sporting events, such as professional basketball and
  hockey games
• Three concerts, including performances by famous pop artists
• A fishing trip, including food and drinks
• Seventeen social events with food and beverages

While the code encourages employees to seek advice from the Office of General
Counsel before accepting gifts, General Counsel staff were not aware of anyone
seeking advice regarding these particular gifts. Further, MWAA’s financial
interest form did not request information on gifts. Disclosing gifts could serve as
an important control to help MWAA prevent and detect instances where
employees accepted gifts that could have influenced their decisions.

Another key area of concern is the lack of requirements to ensure all contracting
officers and COTRs certify that they do not have personal financial interests in the
contracts they award and administer. Specifically, MWAA’s Contracting Manual
only requires contracting officers and COTRs who serve as part of technical
evaluation committees to certify they do not have a personal financial interest in
any contractors they are evaluating. However, not all contracting officers and
COTRs who award or administer contracts participate in technical evaluation
committees, which can lead to gaps in certification. Further, although MWAA
requires contracting officers to submit financial interest forms, it does not require
COTRs to submit the forms. In total, we identified 168 out of 183 active COTRs
who have not completed financial interest forms; a few COTRs were required to
complete the forms for other duties.

Inadequate reviews of financial disclosure forms have further undermined
MWAA’s employee ethics code. The Office of General Counsel, which serves as
MWAA’s ethics office, is responsible for collecting and reviewing financial
interest forms. However, reviews were often limited to a cursory check by a staff
assistant to make sure all forms have been signed and returned. Further, MWAA
does not require that the reviews be signed or dated or otherwise documented. At
                                                                                                                      24


the same time, MWAA has not required employees to complete all sections of the
form. In 48 (38 percent) of the 125 forms we reviewed, 49 MWAA allowed
employees to leave sections of the form blank. However, “N/A” or “None”
responses would have been more appropriate and assured the reviewer that the
employees read and understood the question and were, in fact, indicating that the
question was not applicable to them or that they had no conflicts of financial
interests. Instead, MWAA relies on a pre-printed statement located above the
form’s signature line as assurance that employees accurately disclosed all required
information. 50 In contrast, the U.S. Office of Government Ethics requires Federal
employees to affirmatively state whether or not they have any information that
must be disclosed in each section of the financial disclosure form (such as by
including “None” for a response rather than leaving it blank). This eliminates
ambiguity regarding filers’ intentions.

Finally, the former CEO’s 2009 financial interest form was incomplete, lacking
key details about the CEO’s financial holdings. 51 These weaknesses raise
questions regarding MWAA’s commitment to ensuring compliance with ethics
requirements, especially for its most senior executives.

MWAA’s revised ethics code for employees, effective January 2013, will address
several of these issues by enhancing the requirements for financial disclosure,
including requiring employees to disclose gifts.

MWAA Did Not Require Recurring Formal Ethics Training for All
Employees
A lack of effective ethics training for employees has also exacerbated MWAA’s
weaknesses in its ethics code and processes. Widely considered a best practice
among ethics experts for public organizations, periodic ethics training can educate
individuals regarding the requirements and standards to which they are held, and
set a tone regarding the importance of ethical conduct in all official acts. While
new MWAA employees receive an introduction to the ethics code at orientation,
they do not sign an acknowledgment that they received, read, and understand
MWAA’s ethics policy. Beyond this initial orientation, the only training MWAA
provided at the time of our review was one course that discussed part-time jobs
and gifts, among other topics, for supervisory employees. 52 All other employees,
including senior executives and Vice Presidents, were exempted. Without a strong,
49
   Of the 129 employees required to file financial interest forms between 2009 and 2011, we selected 50 employees to
review, of which 49 employees were randomly selected and 1 employee was selected based on employee interviews.
This amounted to a review of 125 financial interest forms from the 50 sampled employees.
50
   This statement reads, “If I have not completed any of the earlier parts of this form, I certify that neither I nor any
member of my Immediate Family has a financial interest, as defined in the Code, in any entity currently doing business
with the Airports Authority.”
51
   Specifically, the former CEO’s disclosure form was missing the page that identifies businesses in which employees
or their immediate family members have an ownership interest or an actual or potential liability.
52
   This course was offered throughout October through December 2010.
                                                                                                              25


comprehensive employee ethics training program, it is difficult for MWAA to hold
its employees accountable to its ethics requirements or take disciplinary action
against violators.

MWAA LACKS HIRING AND COMPENSATION POLICIES AND
PRACTICES TO ENSURE SUFFICIENT OVERSIGHT AND
ACCOUNTABILITY
Significant deficiencies in MWAA’s hiring and compensation practices call into
question the integrity of the Authority’s management and the qualifications of the
Authority’s workforce. MWAA senior officials made questionable hiring
decisions by circumventing key components of MWAA’s hiring process to bring
on or promote preferred candidates, regardless of their background check results
or qualifications. In addition, managers authorized excessive salaries, unjustified
hiring bonuses and cash awards, and ineligible benefits. Moreover, several of these
questionable decisions occurred within the Office of Human Resources, despite its
responsibility for setting hiring and compensation standards and ensuring sound
management practices for the Authority. This lack of accountability, oversight,
and controls has created a culture of favoritism at MWAA that has negatively
impacted employee morale and exposed the Authority to legal complaints.

Senior Officials Made Questionable Hiring Decisions by
Circumventing Key Components of MWAA’s Hiring Processes
While MWAA has a standard hiring process it generally follows for filling
employment vacancies or creating new positions, this process has not been
formally documented as an official policy, despite the recommendations of an
external governance consultant to do so. 53 This lack of an official policy made it
easier for certain MWAA senior officials to circumvent MWAA’s standard hiring
process to place candidates they desired into new or existing positions, regardless
of their qualifications or their ability to pass a background check.

MWAA Did Not Follow Competitive Hiring Practices for Some Positions
Under MWAA’s standard hiring process, applicants typically undergo a
competitive interview process by a panel, which makes a recommendation to the
hiring official based on the candidates’ qualifications. However, in multiple
instances, MWAA officials either circumvented or ignored the competitive
interview process in order to place a candidate they preferred into a position.
• For one job opening for a contracting specialist, MWAA held competitive
  interviews for the position, and the interview panel recommended a candidate
  who was deemed best qualified for the position. However, the Vice President
53
     This recommendation was made in an organizational study that was contracted by MWAA in September 2010.
                                                                                 26


   of Business Administration disregarded the panel’s recommendation and hired
   a different individual without a clear justification for the selection.
   Subsequently, the candidate who had been recommended by the interview
   panel filed a discrimination complaint, and MWAA hired an outside law firm
   to review the hiring process for the position. The outside firm’s review
   substantiated the complaint, and, as a result, MWAA offered a settlement to
   the candidate, including moving the candidate into the position.

• To fill a key management vacancy in Labor Relations, the Chief Operating
  Officer (COO) instructed the Vice President of Human Resources to convene a
  selection panel to review candidates qualified for the position. However, the
  position remained open for more than a year due to a series of internal disputes
  over the qualifications of the panel assembled by the Vice President, his desire
  to hire a personally preferred candidate, and an Equal Employment
  Opportunity (EEO) complaint filed by a seemingly qualified candidate who
  was not offered an interview. A year later, the position was filled with an
  MWAA employee who proved not to have the experience needed for the
  position and was subsequently transferred elsewhere. Ultimately, the key
  position was filled by one of the original candidates—16 months after the
  position originally opened.

• One executive assistant was promoted to a new position that had not been
  opened for internal or external competition. To fill the now-vacated executive
  assistant position, MWAA did not follow a standard hiring process but rather
  promoted a candidate to the position who had not applied for the job.

MWAA Disregarded Its Internal Procedures for Creating New Positions
In at least two cases, senior executives created new positions designed with certain
people in mind and did not follow standard processes to create and fill these
positions. Typically, MWAA’s process for creating a new position includes
establishing a comprehensive job description and minimum and preferred
qualifications for applicants, subjecting the position to a thorough review by
MWAA’s compensation department (located within the Office of Human
Resources), and then holding a fair and open recruitment to attract the best
candidates. Yet, the MWAA CEO and COO created new positions without
completing these steps. These decisions not only limited employment
opportunities for potentially qualified candidates, but raised questions regarding
the qualifications of the employees placed in these positions—as well as the
necessity of the positions for MWAA’s operations. For example:
• The CEO created an advisory position for a former Board member without
  specifying what the job entailed or establishing market salary and benefits. In
  February 2012, the former Board member was hired by MWAA 1 day after
                                                                                                27


       resigning from the Board. The compensation for this advisory position
       included a salary of $180,000. Subsequently, key MWAA stakeholders
       questioned the appointment, and the former Board member was terminated—
       with a year’s severance pay.

• At the request of a Board member, the COO directed the appointment of a
  specific individual into an entry-level position. The individual, who was an
  immediate family member of the Board member’s close friend, was placed at
  one of the airport warehouses, which put this department into overstaffed status
  at the objection of its Vice President. Moreover, the individual was not given
  any clearly defined job duties. This position was originally labeled temporary,
  but it was not until almost 5 years later—when the position was converted to
  permanent status—that a job description with performance expectations was
  established.

MWAA Used Its Student Program To Circumvent the Standard Hiring
Process for Certain Employees
MWAA officials, including the Vice President of Human Resources, intentionally
allowed employees who were not students to be hired into and continue
employment at MWAA via its student program. MWAA’s student program is a
partnership between the Authority and local high schools and universities that
simultaneously provides valuable work experience to students and staffing
assistance to MWAA. To participate in the program, a student must be enrolled in
a high school or an accredited college or university, maintain at least a 2.3 grade
point average, and be at least 17 years old. However, the appointing official for
four student employees acknowledged that they did not meet the basic requirement
of being enrolled in a high school or an accredited college or university during
their time in the program.

According to the Vice President of Human Resources, hiring these employees into
the student program was justified because they were needed to help manage the
program itself, and due to limited funds in MWAA’s regular budget, it was
necessary to pay the employees from available student program funds. However,
personnel documentation was prepared that falsely showed student status;
compensated the employees using the student pay scale; and/or correlated “not to
exceed” dates to the term limits imposed by the student program, which are based
on school semesters. 54 The four temporary employees have received pay increases
ranging from approximately 10 percent to 60 percent since their initial hire date at
MWAA. In addition, the Vice President indicated that the arrangement was
temporary, but one employee retained false student status for about 2 and a half
years until being transferred out of the program.

54
     Student program timeframes have limits on the number of hours workable during each term.
                                                                                                                       28


MWAA Hired Some Employees Without Completing Background Checks
Under MWAA’s standard hiring process, an applicant’s appointment is contingent
on his or her ability to pass a background check conducted by MWAA’s Office of
Public Safety. These background checks provide an important internal control in
MWAA’s hiring process by verifying that candidates do not have undisclosed
criminal records, significant flaws in their previous employment histories, any
false statements or significant omissions, or other issues that might render them
unsuitable for a position at MWAA. However, our review revealed a number of
issues with MWAA’s background check process:

•    Disregarding Background Check Results. MWAA managers allowed some
     job candidates to begin work prior to the completion of their background
     checks. In one case, a candidate had been working at MWAA for 3 weeks
     when the Vice President of Public Safety recommended against hiring the
     candidate based on the results of the background check, which indicated that
     the candidate made false statements and had a poor credit history. In this case,
     the Vice President of Human Resources chose to ignore the recommendation
     and allowed the candidate to remain in the position.

•    Weak Oversight of Background Investigators. In one notable case, a 24-year
     veteran of MWAA who conducted background checks through the Office of
     Public Safety deliberately misrepresented that background checks of new
     employees were completed. Specifically, the investigator misused his authority
     to sign off on background checks without completing—or in some cases,
     initiating—background investigations and without the Vice President of Public
     Safety’s concurrence. 55 After discovering the investigator’s abuse—the full
     extent of which is unknown—the Office of Public Safety made immediate
     changes to its process, and stated that it plans to re-check all employees whose
     background checks were conducted under the responsibility of the negligent
     investigator. The investigator resigned in April 2012.

• Poor Coordination To Ensure Completion of Background Checks. Because
  the Office of Public Safety does not have access to candidates’ names and
  other hiring information, such as employment applications and other job-
  related data, it depends on the Office of Human Resources to provide the
  information needed to initiate a background check. However, both departments




55
  Prior to this discovery, investigators were given the authority to stamp the Vice President’s signature on the
memorandum provided to the Office of Human Resources to indicate that a candidate cleared his or her background
check. Under this practice, investigators were required to obtain the supervisor’s concurrence with the results of their
investigation prior to signing off on the document.
                                                                                                                        29


     lack a formal process to ensure investigators receive information on all
     candidates. 56

Background checks for temporary and student employees have been particularly
problematic. Temporary employees generally did not undergo background checks,
and in cases where background checks were requested by the Office of Human
Resources the checks were not always completed. A background check of one
temporary employee—who did not fully disclose prior criminal convictions on the
employment application—was never completed; yet, the investigator cleared this
employee for hire. The employee held a management position in the Office of
Human Resources at MWAA for more than a year—with an annual salary of
nearly $135,000 and access to sensitive and personal information—before being
terminated. Two other contractor-provided 57 temporary employees with prior
criminal charges (including charges of misdemeanor assault and drug possession
with intent to distribute) worked at MWAA for at least a year. However, these
employees did not receive a background check until they were transitioning into
full-time permanent positions in MWAA, at which point they were subjected to
MWAA’s standard background checks. The Vice President of Public Safety
eventually recommended against hiring them as permanent employees.

Background checks on potential student employees were also limited. MWAA’s
student program has placed student employees in positions throughout the
Authority that have allowed them access to security sensitive and personal
information, including official personnel folders. Past student positions include
finance clerk, maintenance trainee, budget clerk, procurement technician, clerk
typist, and human resources assistant. Despite their access to sensitive information
and student program guidance stating that all program participants need to
“successfully complete an in-depth background investigation,” student employees’
background reviews were essentially a credit history check.

Throughout the course of our audit, we communicated issues we identified to
MWAA. As a result of our observations, the Office of Public Safety has now
begun to conduct background checks for students and plans to check certain
contracted temporary employees, as well as screening for additional issues such as
nepotism.




56
   The July 2011 organizational study also recommended that MWAA offices prepare service level agreements to
increase teamwork initiatives between departments.
57
   This contractor was the same as the one referred to as Contractor A in the procurement section of this report (see
table 2).
                                                                                                                   30


Senior MWAA Officials Authorized Excessive Salaries, Hiring
Bonuses, Cash Awards, and Ineligible Benefits
MWAA management has also made questionable decisions regarding employee
salaries, hiring bonuses, cash awards, and benefits, raising concerns that MWAA
may be overcompensating unqualified employees. These decisions demonstrate a
significant lack of oversight over employee compensation and have led to the
appearance of a culture of favoritism at the Authority.

MWAA Managers Overruled Pay Setting Reviews To Offer Higher Salaries
to Some Employees
MWAA senior officials disregarded or overruled internal controls to award higher
salaries to certain employees. MWAA’s compensation department conducts pay
setting reviews for new and existing positions to ensure that compensation is in
line with local market comparisons. This allows MWAA to remain competitive in
recruiting and retaining employees while maintaining its financial efficiency.
However, MWAA senior officials have circumvented this process by hiring or
promoting employees into positions with unclassified duties, 58 which bypasses the
compensation department because there are no clearly specified job descriptions to
review. In some cases, senior officials disregarded the compensation department’s
review and awarded higher salaries. For example:

• One secretary was hired at a salary that was 20 percent higher than the newest
  employee in a similar position at the Authority and 36 percent higher than the
  secretary’s previous earnings as a contract employee for MWAA. The Vice
  President of Human Resources stated that the increased salary was warranted
  due to the employee’s education and prior experience qualifications, which
  were greater than required for the position. However, after reviewing the
  position, MWAA’s compensation department stated the salary was
  “unjustifiably inflated” and therefore could not be supported. Despite the
  compensation department’s assessment, the Vice President awarded the
  employee the higher salary.

• One senior official approved an employee’s salary that was above the threshold
  that requires further approval by a higher-level official. However, the senior
  official never obtained the required signature for the employee’s compensation,
  and there are no internal controls to ensure that this higher-level approval is
  received. Moreover, because human resources documentation listed the
  position as having unclassified duties, MWAA’s compensation department did
  not perform a review. As a result, the employee remained in the position
  without any review to justify that the salary was appropriate.

58
  “Unclassified duties” is a category MWAA uses on official personnel forms when a person is hired without a job
description or clearly defined duties and without an officially defined title and pay grade.
                                                                                                                   31


• One executive assistant in the Office of the Board of Directors, who had a prior
  employment relationship with a former Board member, was hired as a
  temporary employee with unclassified duties and then converted to a regular
  full-time MWAA position. This conversion included a two-step pay grade
  promotion amounting to a $15,000 raise (30 percent) after being employed for
  only 5 months. However, there was no documentation to justify the promotion
  and the salary level beyond a statement that the salary was set by the Board of
  Directors. 59

Hiring and Other Bonuses Were Awarded Without Justification
MWAA occasionally awards hiring bonuses to new employees for recruitment
purposes for positions that are unique or difficult to fill. However, MWAA lacks a
formal policy requiring appointing officials to justify why candidates should
receive a bonus. In addition, there is no oversight to verify that new employees
merit the bonus based on an urgent recruitment need. For example, one MWAA
employee received a $10,000 pay increase and a $10,000 hiring bonus for moving
into a new position at the Authority after working for MWAA for only 7 months.
In another case, MWAA awarded a $5,000 hiring bonus for a position that had not
been difficult to fill.

MWAA managers and senior officials also did not adequately justify cash bonuses
awarded to employees. MWAA’s employee recognition program, “I Made a
Difference,” allows managers to reward employees for exceptional
accomplishments or actions that contribute to the Authority’s mission and
initiatives. Ranging between $50 and $2,500 per award, the awards require the
approval of a senior official, but there are no limits for the number of awards or a
maximum dollar amount an employee can receive in a given period. One Human
Resources manager received awards in 4 consecutive years, including two
$2,500 awards within a 7-week period in December 2010 and January 2011, with
little indication of meritorious achievements in the written justification for the
awards. For example, the manager received a $2,500 award for “outstanding
assistance” to external consultants hired by MWAA, but the justification for the
award does not describe the specific actions and resulting impact that warrant the
award. Another employee in a different department received $5,000 in multiple
awards in less than 1 year (including three awards within 1 month totaling
$3,000). While award programs can play an important role in recognizing
accomplishments and retaining exceptional employees, misusing these awards can
create a climate of favoritism that actually risks lowering employee morale.



59
 While the Board of Directors has the authority to approve managerial positions reporting directly to the President and
CEO, this was an executive assistant position and therefore not subject to Board approval.
                                                                               32


MWAA Managers Authorized Employee Benefits That Violated Eligibility
Requirements
Managers also abused MWAA’s benefits program to award benefits to individuals
who were not eligible. For example:

• One Human Resources manager arranged for a former MWAA employee to
  continue to receive pay and leave benefits by delaying the former employee’s
  employment separation paperwork and fraudulently submitting a time card that
  claimed sick leave for the employee. The fraud was uncovered by an
  employee, and the manager was disciplined for time card fraud, which
  included a 3-day suspension.

• Two MWAA employees—the Vice President of Audit and a Human Resources
  manager—inappropriately added ineligible individuals to their medical
  benefits. According to MWAA’s medical benefits policy, employees must be a
  legal guardian of a dependent to include the dependent in their benefits. While
  the two employees claimed that they were the legal guardians of the
  individuals they claimed as dependents, this was not the case. Moreover, the
  Benefits and Retirement Manager approved the benefits without verifying the
  individuals’ eligibility.

Senior Officials Made Questionable Hiring and Compensation
Decisions for the Same Employees
Overall, senior officials made many of the questionable hiring and compensation
decisions for the same employees. We identified 21 employees who were hired
with multiple hiring and compensation deficiencies, including 2 who were hired
with all 5 deficiencies (see table 4).
Ultimately, these cases of multiple deficiencies involving specific employees
suggests favoritism, a lack of accountability, and serious oversight lapses within
MWAA’s overall hiring and compensation practices.
                                                                                          33


Table 4. Hiring and Compensation Deficiencies for Selected
Employees
Employee      Temporary       Related to     Questionable    Incomplete or   Questionable
              Employee         Another         Hiring or     Questionable    Compensation
                Status       Employee or      Promotion       Background      and Benefits
                            Board Member                         Check
1                                                  X                               X
2                 X                                                X               X
3                 X                                X               X               X
4                                                                  X
5                 X                                X               X               X
6                 X                                X               X               X
7                 X                X               X               X               X
8                                                  X               X               X
9                 X                                X               X               X
10                X                                X               X               X
11                X                                X               X               X
12                X                                X               X               X
13                                 X               X               X               X
14                X                                X               X               X
15                X                                X               X
16                                                                                 X
17                                                 X               X               X
18                X                X               X
19                                                 X               X               X
20                X                                X               X               X
21                X                 X              X               X               X
Source: OIG analysis, based on a judgmental sample of 21 out of 34 employees provided through
interviews.


MWAA’S POLICIES AND PROCESSES DID NOT ENSURE
ACCOUNTABILITY AND TRANSPARENCY FOR ITS BOARD OF
DIRECTORS
Weak ethics and travel policies, a lack of oversight, and significant gaps in
transparency have greatly diminished the Board’s accountability. Since the start of
our audit and continuing after the release of our May 15, 2012, interim letter,
MWAA’s Board has taken steps to improve its accountability and transparency,
such as revising its travel policy and providing more information about its
meetings and decisions online. However, some issues remain to be addressed, such
as regulating Board spending on its guests during business meetings and meals.
                                                                                                                     34


Board Policies Have Not Been Sufficient To Prevent Potential
Conflicts of Interest, but Effectively Implementing New Policies May
Prevent Future Unethical Behavior
Because MWAA’s Board members are not bound to Federal, State, or local ethics
and financial disclosure laws, 60 the Board must rely on the strength of its internal
policies and processes to ensure Board integrity. However, MWAA’s Code of
Ethical Responsibilities for its Board members—which is separate from that for
MWAA employees—has lacked the rigor needed to identify and evaluate potential
conflicts of interest and ensure Board decisions are objective. A lack of oversight
has further undermined efforts to promote ethical conduct. Following the
publication of our interim letter, the Board Chairman stated that revisions to
MWAA’s Board’s ethics policy will be made to address our ongoing concerns.
MWAA recently approved a new code of ethics for its Board, which will be
effective December 1, 2012. While these revisions are an important step to
improve the Board’s accountability, effective implementation and oversight will
be critical to ensuring ethical behavior among Board members.

At the time of our audit, MWAA’s financial disclosure process for its Board of
Directors only required Board members to identify the employers of their
immediate family members and to disclose their financial interests in entities that
are either currently involved with or seeking a contract with the Authority. 61 In
addition, MWAA’s policies have been vague regarding when and how Board
members must recuse themselves from proceedings due to a conflict of interest.
MWAA has also lacked guidelines to screen a Board member from involvement in
any matter from which the Board member is recused. In contrast, Federal
employees who are subject to disclosure requirements reveal all financial interests
and other affiliations, with some exceptions, 62 as well as liabilities, gifts,
arrangements and agreements for employment, outside positions, stock holdings
(above a low threshold), and travel reimbursements. Federal ethics officials use
this information to identify potential conflicts and advise employees on how to
avoid potential conflicts. Further, Federal ethics guidelines recommend a system
that implements screening practices to ensure that employees comply with their
recusal obligations. An effective system actively screens for matters that may
relate to a Board member’s interests and refers any potential matters to the
appropriate parties to ensure that they are addressed. MWAA’s financial
disclosure system fails to include such proactive steps.



60
   Although Board members may file a Federal or State disclosure file as part of the appointment process, MWAA does
not review them or use them as part of its ethics program.
61
   MWAA provides Board members with a list of these entities, and Board members are required to report any interests
they may have with the listed entities.
62
   Exceptions include those interests that fall within well-defined categories that have been found unlikely to create a
conflict of interest (for example, ownership of a diversified mutual fund).
                                                                                                                35


As with MWAA employees, MWAA encourages Board members to seek counsel
if they believe a potential conflict of interest exists. However, MWAA has not
provided the oversight needed to ensure Board members understand the
importance of and comply with its ethical standards. Further, MWAA did not
provide formalized training on ethics or on the financial disclosure process to
Board members. Although Board members are ultimately responsible for
identifying and disclosing any potential conflicts of interest, oversight and regular
ethics training can play a critical role in reinforcing ethical guidelines and
emphasizing steps Board members should take to avoid potential conflicts of
interest. 63

Perceived conflicts of interest with Board members have already damaged
MWAA’s credibility. For example, one Board member’s recommendation led
MWAA to initiate a $100,000 contract with a law firm that employed the
member’s spouse—creating at least the appearance of a conflict of interest.
Although MWAA’s policy states Board members may not participate in any
Board decision or Authority action when a conflict of interest or the appearance of
one arises, MWAA awarded the contract to the Board member’s recommended
firm.

MWAA’s code of ethics for its Board contained other weaknesses. Notably, at the
time of our audit, it did not include a provision against nepotism as its code for
employees does. An ethics policy that clearly delineates the types of relationships
that are and are not acceptable between Board members and hired MWAA
employees is key to ensuring relatives and friends of Board members do not
receive preferential treatment. For example, MWAA hired the grandchildren of
two Board members. In particular, one Board member had at least two
grandchildren working at MWAA. The same Board member also insisted that
MWAA hire an immediate family member of his close friend. MWAA’s recently
revised Board code of ethics contains a new provision preventing this type of
influence.

MWAA Recently Revised Its Travel Policies To Help Ensure Board
Travel Expenses Are Reasonable
When we began our review, MWAA’s policies for Board travel lacked clarity and
oversight in key areas, including spending thresholds for meals and travel class. In
addition, there was little to no oversight of travel expenses, even those that the
Board Chair was supposed to approve under MWAA’s policy. These weaknesses
created the risk that Board travel expenditures could be perceived as excessive by
stakeholders and the public. We identified several costly meals and expensive
plane tickets that MWAA reimbursed, including $238 for two bottles of wine
63
  When the new Board ethics code is implemented, effective December 1, 2012, it will require both initial and
recurrent ethics training for Board members.
                                                                                                                   36


purchased during a meal and $9,200 for an international business-class air ticket to
Europe purchased only 10 days prior to the trip. 64

Since we issued our interim letter, MWAA has taken actions to address
weaknesses in its Board travel policies. Most significantly, on September 5, 2012,
the Board voted to revise its policies with new provisions that notably strengthen
MWAA’s guidelines and internal controls for travel and meal expenses. In
particular, the Board voted to consolidate both the Board travel and MWAA
employee travel policies—which were previously separate documents—into one
overarching MWAA travel policy. Other improvements to the policy include
requiring a preauthorization form to be completed and approved prior to travel in
order for expenses to be reimbursed, 65 prohibiting alcoholic beverages from
reimbursement, more clearly specifying and limiting when travelers may travel
any class other than economy class, establishing a fixed per diem rate for meals
and incidentals during travel, and requiring an annual review of all travel expenses
by the Office of Audit.

These additions and revisions—if effectively implemented—will go far in
enhancing the Board’s accountability for its travel expenses. However, some gray
areas remain. For example, while the new policies “encourage” travelers to find
“reasonable rates” for hotel rooms, they do not clearly specify or define what
makes a hotel rate “reasonable” or require Board members to comply with the
reasonable rate. As a result, this particular provision may be difficult to enforce
and audit.

In addition, MWAA’s current policy does not address instances where Board
members may need to entertain business associates to conduct or advance
MWAA’s business relationships—such as by clearly defining and placing
spending thresholds on when meals for MWAA guests are reimbursable. Given
that Board entertainment expenses were some of the most exorbitant reimbursed
travel vouchers in the sample we reviewed, some further delineation for the
approval of these expenses will be critical to help ensure that all costs reimbursed
are necessary and in the best interests of the Authority.

MWAA Recently Enhanced Its Board’s Transparency, but Some Key
Proposed Changes Have Yet To Be Implemented
Early in our review, we also identified opportunities for MWAA to enhance the
transparency of Board decisions, activities, and processes. Transparency is critical
for ensuring accountability and for keeping the public, Congress, and other
stakeholders informed of major decisions that impact residents of the Washington,
64
   For more details on these and other expenses, see our interim letter, available on our Web site at www.oig.dot.gov.
65
   The Board Office (which includes Board members, the Vice President and Secretary, and Board staff) are not subject
to this preauthorization requirement for travel to Board and Committee meetings and any function, meeting, or event
other than conferences for which the invitation has been extended to all Directors or Directors on the same Committee.
                                                                                                                  37


DC, metropolitan region. Largely as a result of our discussions with MWAA as
well as our interim letter, MWAA has implemented or begun implementing
several actions to improve its Board’s transparency. These include the following:

• Freedom of Information Policy. In February 2012, the Board revised its
  bylaws to require that meeting announcements, agendas, minutes, and other
  key information be posted to MWAA’s Web site. In July 2012, MWAA
  revised its internal Freedom of Information Policy, clarifying what information
  is not available for public release and requiring more public information to be
  posted online. However, one weakness in the policy is the absence of recourse
  for individuals who are denied access to information beyond an internal appeal
  process. In contrast, Federal law allows for an external judicial review in cases
  where a requester is denied information.

• Opening audit committee meetings to the public. Unlike other similar
  transportation boards, 66 MWAA has held its audit committee meetings in
  closed session—an especially significant gap in transparency considering the
  nature of the committee, which discusses issues related to policy and oversight.
  As we reported in our interim letter, this practice denied the public and
  stakeholders, such as airlines, the opportunity to learn of MWAA’s internal
  audit findings and recommendations. Since the publication of our letter,
  MWAA’s Board Chair has stated that he intends to allow for the audit
  committee to meet in regular open session when appropriate. In June 2012,
  MWAA held a portion of its audit committee meeting in open session for the
  first time. However, subsequent meetings have not been held in open session,
  and the Board has yet to revise its bylaws with this change, nor has it
  adequately defined what topics are appropriate for open session.

•    Limiting use of executive sessions. MWAA’s Board Chair has also pledged to
     limit the number of executive sessions used by the Board. Like other public
     entities, MWAA’s Board holds a portion of its discussions behind closed doors
     in executive session to allow for confidential discussion of matters such as
     personnel changes or ongoing litigation. Although these sessions are a
     necessary and common part of doing business, their excessive use could
     obscure vital information and processes from the public. The risk of
     inappropriate executive sessions is heightened by the fact that MWAA is not




66
   For example, as part of our review, we visited the Port Authority of New York and New Jersey and Dallas-Fort
Worth International Airport to gain an understanding of their Boards’ functions and activities, with a focus on
accountability and transparency practices. We chose these entities based on their many similarities to MWAA, such as
size and makeup of board.
                                                                                                                     38


     subject to Federal or State guidelines or potential penalties for any abuse of
     these sessions, unlike other major transportation boards. 67

CONCLUSION
As an independent public body subject to few Federal and State laws, MWAA
must rely on the strength of its policies and processes to ensure credibility in its
management of two of the Nation’s largest airports and a multibillion-dollar public
transit construction project. However, MWAA’s ambiguous policies and
ineffectual controls have put these assets and millions of Federal dollars at
significant risk of fraud, waste, and abuse and have helped create a culture that
prioritizes personal agendas over the best interests of the Authority. While
MWAA is taking positive steps to correct the deficiencies we identified—
including revising its travel policies and suspending contracts with former Board
members—significant weaknesses remain that leave the Authority vulnerable to
criticism for its contracting practices and governance. Enhanced policies, strong
internal controls, and robust oversight in the areas of hiring and compensation,
ethics, transparency, and procurement will be critical to maintaining and
improving the Authority’s operations and restoring public trust in the soundness of
its current and future activities.

RECOMMENDATIONS
We recommend that the Office of the Secretary direct MWAA to take the
following actions to promote integrity and accountability in the Authority’s
management and governance. We also recommend that the Office of the Secretary
consider devising and adopting enforcement mechanisms to ensure that these
actions are followed.

1. Provide quarterly acquisition reports to the Board of Directors and to DOT.
   These reports should include the following: (a) contracts awarded, dollar value,
   and the extent of competition; (b) name of contracting officer or delegated
   official who entered into the contract; (c) contract modifications and task
   orders issued, including dollar value; (d) contract actions approved by the
   Board during the quarter; (e) planned procurements for the next quarter; and (f)
   employees with contracting warrants and delegations and any limits to their
   authorities.



67
  In contrast, similar entities, such as the Board of Directors of the Dallas-Fort Worth International Airport, must
follow Texas State law and guidelines related to ethics, transparency, and procurement, and willful failure to comply
can be punishable by imprisonment and fines. For example, a willful violation of the Texas open meetings law is a
misdemeanor punishable by up to 6 months in prison and a fine of up to $500. Under Virginia law, which MWAA is
not subject to, a willful violation of the open meetings law is a $500 to $2,000 civil penalty for a first offense and
$2,000 to $5,000 for a second and any subsequent offense.
                                                                                39


2. Implement a plan with milestones to revise contracting policies and procedures
   to reflect Federal and other best practices, including the following:
   a. Publicly announce intent to award sole source contracts.
   b. Minimize categorical exceptions to full and open competition and explicitly
      state the conditions under which an exception can be used.
   c. Limit the involvement of the Board of Directors and individual Board
      members in contracting and prohibit their ability to bypass contracting
      officers.
   d. Ensure fair opportunity in the awarding of task orders under multiple-award
      contracts and ensure contracting officers adequately justify their selections
      of contractors.
   e. Limit and monitor delegations of procurement authority.
   f. Require program offices to prepare annual forecasts of their acquisition
      needs.

3. Clarify and enforce its current contracting policies and procedures, including
   the following:
   a. Obtain Board approval for sole source awards over $200,000 and all
      contracts other than fully competed construction contracts over $3,000,000.
   b. Ensure justifications for the use of categorical exceptions are adequate per
      MWAA’s Contracting Manual.
   c. Ensure justifications for the use of task orders over $200,000 are adequate
      per MWAA’s Contracting Manual.
   d. Prohibit adding out-of-scope work to contracts and authorizing work prior
      to contract award.
   e. Ensure technical evaluation committees do not include both supervisors and
      a subordinate as voting members when possible.

4. Define and assess the size and skills of the acquisition workforce and
   implement an appropriate acquisition certification program, including
   acquisition and ethics training.

5. Establish policies and procedures for procurement integrity, including the
   following:
   a. Safeguard non-public and sensitive procurement information.
   b. Restrict prior Board members’ and employees’ eligibility for MWAA
      contracts and prohibit them from receiving compensation from contractors
      who were awarded contracts, modifications, or task orders of significant
                                                                               40


      value after serving as a contracting officer, program manager, or other
      related positions.

6. Fully implement formal ethics policies and procedures for Board members and
   MWAA employees to ensure the following:
   a. Nepotism is detected and prevented.
   b. Board members and employees disclose debts, obligations, and holdings—
      regardless of whether the interests currently conduct or are seeking to do
      business with MWAA—and gifts on their financial interest forms.
   c. All contracting officers and COTRs certify that they do not have financial
      interests in the contracts they award or administer.

7. Ensure that the review process for financial interest forms emphasizes
   verification and documentation of the following:
   a. All Board members and employees completed and submitted required
      financial interest forms.
   b. Any Board members and employees who have a conflict of interest or
      potential conflict of interest are counseled.

8. Fully implement a formal, robust ethics training program that ensures the
   following:
   a. All employees receive initial training.
   b. Recurrent training is based on employees’ level of responsibility.
   c. MWAA employees involved in contracting receive training in procurement
      integrity procedures.

9. Establish priorities for implementing the new Board and MWAA employee
   ethics codes, including developing procedures to oversee and enforce the new
   codes. Develop and implement a process to measure the effectiveness of the
   codes and the oversight and enforcement procedures, and revise or update as
   necessary.

10. Implement and enforce human resources policies and practices, including the
    following:
   a. Implement a competitive hiring and compensation policy and process that
      competes positions, whether newly created positions, vacancies, or
      promotions. All positions should be based on a specific job description with
      a set salary range.
   b. Verify that candidates and current employees meet and maintain program
      eligibility requirements for the student employment program.
                                                                                    41


   c. Complete background checks on all new employees prior to their start date
      through a formal communication and coordination process between the
      Offices of Human Resources and Public Safety.
   d. Establish a list of acceptable justifications to override a no-hire
      recommendation from the Office of Public Safety.
   e. Establish a policy to administer and oversee hiring bonuses and cash
      awards, including more stringent requirements for justifying and approving
      awards an employee can earn in a certain period of time.
   f. Verify eligibility prior to authorizing and continuing pay and/or benefits.

11. Revise its travel policy to further define what constitutes a “reasonable lodging
    expense” for Authority-related travel and to require that travelers do not
    exceed the defined amount.

12. Further enhance the accountability and transparency of the Board of Directors,
    including the following:
   a. Further revise the Board’s bylaws to incorporate what actions the audit
      committee may take in closed session.
   b. Develop a Board-specific policy that establishes guidelines for entertaining
      business contacts, including spending thresholds and reimbursement
      prohibitions for items such as meals, alcohol, and entertainment.
   c. Include a mechanism for external review in the Freedom of Information
      Policy when a requester is denied information.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided OST with our draft report on October 3, 2012, and received its
formal written comments on October 18, 2012. OST’s response is included in its
entirety as an appendix to this report. In its response, OST stated that the
Department will formally transmit the final report to MWAA with a clear
expectation that the Authority produce a detailed response within 30 days
addressing each of our recommendations and specific sub elements.

OST emphasized that the Department is exercising the full extent of its authority
to help MWAA address the serious problems raised in our report. According to
OST, the Department has been working with MWAA over the last several months
to ensure that it swiftly adopts needed reforms. In particular, the Department
appointed an Accountability Officer to provide guidance to MWAA as it rewrites
its policies and procedures.
                                                                                  42


As we recognize in our report, MWAA has already taken several actions to begin
addressing issues raised in our audit. OST also stated that the Federal
Accountability Officer has worked with MWAA to take further actions to address
some of the issues in our report, such as initiating action to revise the contracting
manual and delegations of authority, and planning revisions to Human Resources
policies. In addition, OST stated that, looking ahead, MWAA is taking action to:

• Plan 35 ethics training sessions on the newly adopted policies for all MWAA
  staff, as well as one session for Board members and Board Office staff, to be
  completed between October 25 and November 23, 2012. Annual ethics training
  will now also be required for all MWAA personnel.
• Establish a database of contractors, potential contractors, and other potential
  prohibited sources with which to compare to financial disclosure forms and
  conflict of interest analyses.
• Initiate development of standard operating procedures and forms relating to
  ethics and travel, so that the new policies can be successfully implemented.
• Establish an internal control group to track all internal and external audits that
  would identify open issues and track issue and recommendation resolution.
  The group will also track and test all systems and policy implementation.

We acknowledge that these planned actions may improve MWAA’s contracting,
ethics, and transparency. However, since these actions have not yet been
implemented, we have not had the opportunity to assess MWAA’s execution of
them. Additionally, while MWAA’s planned actions represent positive steps, our
audit report identifies 12 recommendations and 30 specific sub-recommendations
that remain open and unresolved, pending MWAA’s detailed response to the
Department.

We also recommended that OST consider devising and adopting enforcement
mechanisms to ensure that our recommended actions are followed. In its response,
OST indicated that the Department will continue to hold MWAA accountable and
is pursuing an amendment to its lease with MWAA to ensure greater oversight and
enforcement. Ultimately, vigilant oversight is needed to ensure that MWAA
institutes the reforms necessary to regain the public trust.

ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we request that
you provide a response within 30 days to this report that indicates how MWAA
will resolve the recommendations in this report.

We appreciate the courtesies and cooperation of the Metropolitan Washington
Airports Authority and Department of Transportation representatives during this
                                                                               43


audit. Please feel free to contact me at (202) 366–1959 or my Deputy, Ann
Calvaresi Barr, at (202) 366–6767 if we can be of further assistance.

If you have overall questions concerning this report, please contact Lou E. Dixon,
Principal Assistant Inspector General for Auditing and Evaluation, at (202) 366–
1427. For specific questions on contracting, please contact Mary Kay Langan-
Feirson, Assistant Inspector General for Acquisition and Procurement Audits, at
(202) 366–5225. For specific questions on governance and accountability, please
contact Jeffrey B. Guzzetti, Assistant Inspector General for Aviation and Special
Program Audits, at (202) 366–0500.

                                        #

cc: General Counsel Robert Rivkin
    Chief of Staff Joan DeBoer
    DOT Audit Liaison
                                                                               44



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit from June 2011 through October 2012 in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. The objectives of our audit were to determine whether (1) the policies
and processes under which MWAA operates comply with the terms of the law and
lease between DOT and MWAA, and (2) MWAA’s policies and processes are
sufficient to ensure accountability and transparency of its Board’s activities.
Specifically, we assessed (1) MWAA’s contract award and procurement practices,
including compliance with relevant laws; (2) its code of ethics for its employees;
(3) its hiring and compensation practices; and (4) the accountability and
transparency of its Board of Director activities.

We reviewed the Metropolitan Washington Airports Act of 1986, which created
MWAA; the lease of 1987, as amended, between MWAA and the U.S.
Department of Transportation through the Secretary (OST); and the District of
Columbia and Virginia Commonwealth statutes covering MWAA. To test
MWAA’s compliance with the lease’s payment requirement, we selected a
statistical sample of 10 of 48 semiannual MWAA lease payments to the Federal
Aviation Administration (FAA) from December 1987 to June 2011.

To gain an understanding of how MWAA operates, we met with the CEO, COO,
Chief Financial Officer, managers of both Dulles International and Ronald Reagan
Washington National Airports, all MWAA Vice Presidents, the Office of Business
Administration, the Office of Human Resources, and the Office of Public Safety.
We also reviewed internal audit reports prepared from November 2007 through
June 2011. Further, to understand OST’s role at MWAA, we also met with OST’s
liaison to MWAA and its recently appointed Accountability Officer.

To assess MWAA’s contract award and procurements practices, we interviewed a
range of MWAA staff, including contracting officers, COTRs, legal staff, and
MWAA management. We reviewed MWAA’s Contracting Manual, the Airports
Purchasing Policies and Procedures Manual, prior GAO reports, MWAA’s
internal audit reports, MWAA’s procurement staff training documents and
financial interest forms, and other MWAA documents. We also reviewed Federal
policies, such as the FAR, and State and local contracting policies for best
practices.

In addition, we reviewed a total of 125 MWAA contracts. To select the contracts
for review, we obtained contracting data from MWAA’s Procurement and

Exhibit A. Scope and Methodology
                                                                                                    45


Contracts Department for (1) contracts awarded between January 2009 and June
2011 and (2) all active contracts as of June 2011. We then selected two statistical
samples and 69 contracts based on risk. Figure 3 details our contract selections.
Further, we reviewed a nonrepresentative sample of contract modifications and
task orders from sample 2, and reviewed MWAA’s contract files to assess whether
the contract award and administration practices complied with the Airports Act,
the lease, and MWAA’s Contracting Manual.

Figure 3. Sample Selection of MWAA Contracts
 Sample 1 (statistically selected, basis of a projection)
 Number of           Value of         Range of Fiscal   Number of       Value of     Range of Contract
 Contracts In     Contracts in     Years of Contracts   Contracts      Contracts        Award Years of
 Universe           Universe              In Universe    Reviewed      Reviewed     Contracts Reviewed

 165            $519 million             2009-2011            32    $251 million          2009-2011

 Sample 2 (statistically selected, basis of a projection)
 Number of            Value of        Range of Fiscal   Number of       Value of     Range of Contract
 Contracts In      Contracts in    Years of Contracts   Contracts      Contracts        Award Years of
 Universe            Universe             In Universe    Reviewed      Reviewed     Contracts Reviewed

 343              $2.8 billion           1987-2011            24     $2.2 billion         1989-2009

 Sample 3 (selected based on risk, results cannot be generalized)
 Number of            Value of        Range of Fiscal   Number of       Value of     Range of Contract
 Contracts In      Contracts in    Years of Contracts   Contracts      Contracts        Award Years of
 Universe            Universe             In Universe    Reviewed      Reviewed     Contracts Reviewed
 No universe because contracts were selected based on
 risk.                                                        69     $52 million          2006-2011


To assess the effectiveness of MWAA’s employee code of ethics for preventing
conflicts of interest, we met with personnel from the Office of General Counsel
and interviewed employees, and reviewed the Code of Ethics for MWAA
Employees, dated May 2004, revised November 2009, and most recently approved
on September 19, 2012 and effective January 1, 2013. Also, we reviewed all 125
certificates of financial interest filed by 50 employees in 2009, 2010, and 2011.
Forty-nine employees were statistically selected from a universe of 129, and 1 was
received from employee interviews.

To evaluate MWAA’s hiring and compensation practices we interviewed
personnel from the Office of Human Resources and the Office of Public Safety; as
well as, employees from various other departments. We obtained 34 official
personnel records of employees whose names were either provided through
employee interviews or that we identified in the course of our review as having
irregularities during the hiring or compensation process. We reviewed 23 files
from the Office of Public Safety pertaining to background checks. In addition, we
reviewed MWAA Directives. We also reviewed MWAA job classification reports

Exhibit A. Scope and Methodology
                                                                                46


and pay scales from 2006 to 2012; and analyzed employee complaints from 2009
through 2011, legal reviews, internal investigations, and portions of various
organizational studies.

To evaluate the accountability and transparency of Board of Director activities, we
interviewed current and past Board Directors and the Board Secretary; attended all
MWAA Board monthly and nine Committee meetings from September 2011
through July 2012, with the exception of November 2011; and reviewed Board
meetings minutes from December 2008 through March 21, 2012. We also assessed
MWAA’s Board bylaws as amended April 20, 2011, and later revised February
15, 2012; the “Code of Ethical Responsibilities for Members of the Board of
Directors” as amended December 3, 2003; the “Code of Ethics for Members of the
Board of Directors” as approved September 19, 2012, and effective December 1,
2012; the “Travel and Business Expense Guidelines for Board of Directors” as
approved in 2008 and a related May 7, 2008, memorandum; and the revised
“MWAA Travel Policy” as approved and effective September 5, 2012. In addition,
we reviewed a statistical sample of 44 of 144 Board of Directors’ travel vouchers
for expenses incurred January 2010 through March 2011; and all Statements of
Employment and Financial Interests filed by the Board of Directors for January
2008 through January 2011. We also reviewed MWAA’s Web site to determine
what information was available to the public. To obtain comparisons for
transparency and accountability, we visited the Port Authority of New York and
New Jersey and the Dallas-Fort Worth International Airport, attended their Board
meetings, interviewed Board members and staff, and reviewed their respective
Web sites.




Exhibit A. Scope and Methodology
                                                           47



EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED
MWAA Board
•   MWAA Board of Directors
•   Board Counsel
•   Secretary to the Board of Directors

MWAA Officers, Offices, and Airports
•   President and Chief Executive Officer
•   Executive Vice President and Chief Operating Officer
•   Office of Air Service Planning and Development
•   Office of Audit
•   Office of Business Administration
•   Office of Engineering
•   Office of Finance
•   Office of General Counsel
•   Office of Human Resources
•   Office of Information and Telecommunications Systems
•   Office of Public Safety
•   Ronald Reagan Washington National Airport
•   Washington Dulles International Airport

Other Stakeholders
•   Airports Council International-North America
•   Federal Aviation Administration
•   Federal Transit Administration
•   Office of the Secretary of Transportation
•   U.S. Government Accountability Office
•   Virginia Department of Transportation

Comparable Organizations to MWAA
•   Port Authority of New York and New Jersey
•   Dallas-Fort Worth International Airport Board




Exhibit B. Organizations Visited or Contacted
APPENDIX. OST COMMENTS   48




Appendix. OST Comments
                         49




Appendix. OST Comments
                         50




Appendix. OST Comments
